September 25, 2009

MEGAN J. BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – Philadelphia District Post Office Financial Risk Audit
         (Report Number FF-AR-09-223)

This report presents the results of our audit of financial accountability in the Philadelphia
Metropolitan District (Project Number 09BD015FF000). We conducted this audit at 13
judgmentally selected post offices, stations, and branches.1 This audit was self-initiated
and addresses financial risk based on factors evaluated by U.S. Postal Service Office of
Inspector General (OIG) Performance and Results Information System (PARIS) models.
See Appendix A for additional information about this audit.

Conclusion

We identified 135 of 302 Philadelphia District post offices, stations, and branches with
high-risk accounting activities based on our PARIS Cost and Controls model. Of 13
sites visited, we found 80 internal control and compliance issues related to stamp
accountabilities, disbursements, and financial accounting and reporting. Further, we
identified similar issues at eight randomly selected sites conducted in the Philadelphia
Metropolitan District over the past 3 years in support of audits of the U.S. Postal
Service’s financial statements.

We attribute the internal control deficiencies to insufficient training, financial
background, and oversight of the managers and supervisors responsible for
implementing financial internal controls. As a result, Philadelphia District post offices,
stations, and branches are at an increased risk of losing cash, accountable items, and
revenue without detection; and misstating financial records. We identified $945,487 in
monetary and $1,124,353 in non-monetary impact as a result of managers not
effectively implementing internal controls.



1
 We initially selected five sites to audit: xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx We expanded our audit to visit eight additional sites to review
master trust accounts: xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
Philadelphia District Post Office Financial Risk Audit                                       FF-AR-09-223



Internal Control Procedures Need Improvement

We found significant financial internal control weaknesses over stamp, money order,
and cash accountability; disbursements; and financial accounting and reporting at five
sites visited. For example, we found potential cash loss of $86,666 at one station
because management was not reconciling cash transfers. We also found that units
recorded Business Reply Mail/Postage Due (BRM/PD) transactions in manual records,
but did not record $185,889 in withdrawals from BRM/PD accounts in the Point-of-
Service (POS) system. Also, units did not reconcile their manual records2 with
Accounting Data Mart (ADM) reports on a monthly basis. Additionally, we identified 56
inactive accounts valued at $52,433 that were not closed. In total, we identified 80
internal control deficiencies out of 161 control tests performed. The control tests
performed addressed draft key controls identified by Postal Service.

We attributed the internal control deficiencies to financial managers’ and supervisors’
insufficient financial background and training. Also, while district management recently
implemented district-wide monitoring of individual unit performance, we found the new
procedures were incomplete and unit managers and supervisors were not sufficiently
supervised. As a result, Philadelphia District post offices, stations, and branches have
an increased risk of losing cash, accountable items, and revenue without detection; and
misstating financial records.

See Appendix B for our detailed discussion of stamp, money order, and cash;
disbursement; and financial accounting and reporting internal control deficiencies.
Appendix C presents the results of our accountability examinations, and Appendix D
presents the internal control deficiencies identified at each unit. Appendix E presents
the detail of the monetary impact,3 and Appendix F presents the detail of the non-
monetary impact.4

We recommend the Vice President, Eastern Area Operations, direct the Manager,
Philadelphia Metropolitan District, to:

1. Require employees to obtain finance-related training, such as the 10 “Field Finance
   Toolkit” training courses listed on the Accounting blue pages within 1 year of
   becoming a unit financial manager or supervisor. Also, the district should provide
   continuing financial training to managers in units with internal control deficiencies.

2. Improve district oversight of unit financial operations by including measurements in
   internal oversight documents for monitoring retail floor stamp stock levels and


2
  Master trust accounts.
3
  The monetary impact includes recoverable revenue loss, recoverable questioned costs, and unsupported
unrecoverable questioned costs.
4
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.




                                                         2
Philadelphia District Post Office Financial Risk Audit                         FF-AR-09-223



    counting unit cash reserves, and hold unit managers accountable for improving unit
    financial operations in measured areas.

3. Develop and implement an action plan with milestones that will implement the
   control deficiencies found.

Management’s Comments

Management agreed with our findings and recommendations. Management stated
there is a valid need for financial training and plans to provide a “hybrid” financial
training class to Executive and Administrative Schedule (EAS) employees responsible
for financial management of retail units by March 31, 2010. If the return on investment
proves to be beneficial in Philadelphia, the Eastern Area will continue expanding the
training to other districts. Additionally, management has begun producing excess retail
floor stock reports and will add this measurement to the District Manager Financial
Scorecard in fiscal year 2010. Furthermore, the Eastern Area issued a memorandum
on September 18, 2009, to all District Managers expressing the importance of
maintaining financial internal controls and holding managers accountable for
compliance. Finally, the Philadelphia District Manager developed an action plan with
milestones to address the issues identified in the report. The district plans to implement
corrective actions by March 31, 2010. See Appendix G for management’s comments in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin Ellenberger, Director,
Field Financial – East, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments




                                                         3
Philadelphia District Post Office Financial Risk Audit       FF-AR-09-223



cc: Joseph Corbett
    Steven J. Forte
    Vincent H. DeVito, Jr.
    Eric R. Faber
    James J. Gallagher
    Steven R. Phelps
    Bill Harris




                                                         4
Philadelphia District Post Office Financial Risk Audit                                              FF-AR-09-223



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Post offices are the initial level from which the Postal Service recognizes revenue from
operations and include main offices, stations, and branches. Postmasters or installation
heads are responsible for collecting all receipts to which the offices are entitled,
accounting for all funds entrusted to them, and ensuring the offices meet all accounting
objectives.

The Philadelphia Metropolitan District is in the Eastern Area and includes 302 post
offices with POS system and Integrated Retail Terminal reporting technology. The
district reported approximately $1.5 billion of revenue in FY 2008, $18 million of which
was reported by the five units we audited.5

The OIG performs periodic financial risk assessments. Based on financial data in the
Enterprise Data Warehouse, the OIG developed a PARIS Cost and Controls Model
which ranks the Postal Service’s 80 districts with respect to specific financial risk
indicators.6 We selected the Philadelphia Metro District because our model suggested
the district was a high financial risk compared to others. For the first, second, and third
quarters, FY 2009, data ranked this district as the 14th, 18th, and 3rd highest risk
district, respectively.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to identify high-risk accounting activities and determine
whether corresponding internal control procedures were in place and effective.

To accomplish our objectives, we audited the following five judgmentally selected units
in the Philadelphia Metropolitan District. We selected the sites based on high stock
levels, disbursements, and financial accounting and reporting items such as employee
items and master trust.

     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx



5
  We obtained FY 2008 revenue for the Philadelphia Metropolitan District and the judgmentally selected units from
the Financial Performance Report via ADM as of September 30, 2008.
6
  The risk indicators include: Revenue, Local Expenses, Refunds, Miscellaneous Expenses, Non-Local Purchases,
Clerk Cash, Office Cash, Employee Items, Master Trust Accounts, Segmented Inventory Accountability Compliance,
Stamp Stock Management, and Contract Postal Unit Management.




                                                         5
Philadelphia District Post Office Financial Risk Audit                        FF-AR-09-223



At each unit, we performed accountability examinations and evaluated whether the
internal control structure over financial accounting and reporting, disbursements, and
safeguarding of assets was implemented and functioning as designed. We also
reviewed disbursement transactions generated for the May 2008 through May 2009
reporting period, and reviewed employee items and master trust transactions generated
for the April and May 2009 audit period.

During the audit, we expanded our review at the following eight judgmentally selected
units to evaluate BRM/PD master trust accounts. At each unit, we determined whether
employees were managing and resolving audit differences or adjustments for trust
accounts and compared their trust account balances to the ADM Master Trust by Site
report as of July 2009.

    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. We also
evaluated whether the internal control structures over stamp, money order, and cash
accountability; disbursements; and financial accounting and reporting were
implemented and functioning as designed. We conducted interviews with management
and employees to assess their level of knowledge and involvement in the district and
the units at these judgmentally selected Postal Service sites. We discussed with district
management potential causes to the conditions identified, considering training, staffing,
and oversight of Postal Service unit personnel and operations.

We conducted this performance audit from April through September 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on August 27, 2009, and
included their comments where appropriate.




                                                         6
Philadelphia District Post Office Financial Risk Audit                              FF-AR-09-223



PRIOR AUDIT COVERAGE

The OIG issued eight financial installation audit reports for the Philadelphia Metropolitan
District within the past 3 years. The reports identified internal control and compliance
issues such as cash and stamp accountability; improper, unsupported, or unapproved
disbursements; inactive business reply mail; unsupported employee items; and
unreconciled master trust accounts. Additionally, our report titled Activation of the
Philadelphia Processing and Distribution Center identified some key activation steps
management had not fully implemented. The reports made recommendations to
address these issues, and management agreed to take corrective action.

                                                               Final                  Non-
                                                   Report     Report    Monetary    Monetary
                 Report Title                     Number       Date      Impact      Impact
   FY 2006 Financial Installation Audit –      FF-AR-06-166   5/17/06      $1,691           -
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   FY 2006 Financial Installation Audit –      FF-AR-06-226   8/1/06       $1,286           -
   xxxxxxxxxxxxxxxxxxxxxxx
   FY 2006 Financial Installation Audit –      FF-AR-06-263   8/31/06           -           -
   xxxxxxxxxxxxxxxxxxxxxx 
   FY 2006 Financial Installation Audit –      FF-AR-06-273   9/25/06           -           -
   xxxxxxxxxxxxxxxxxxxxxxxx
   FY 2007 Financial Installation Audit –      FF-AR-07-123   3/19/07           -      $4,133
   xxxxxxxxxxxxxxxxxxxxxx 
   FY 2007 Financial Installation Audit –      FF-AR-07-165   5/23/07       $943            -
   xxxxxxxxxxxxxxxxxxx 
   FY 2007 Financial Installation Audit –      FF-AR-07-199   7/31/07     $22,080    $12,871
   xxxxxxxxxxxxx
   FY 2008 Financial Installation Audit –      FF-AR-08-162   4/18/08     $31,259   $618,865
   xxxxxxxxxxxxxxxxxxxxxxx
   Activation of the Philadelphia              NO-AR-08-004   7/10/08           -           -
   Processing and Distribution Center




                                                         7
Philadelphia District Post Office Financial Risk Audit                                            FF-AR-09-223



                               APPENDIX B: DETAILED ANALYSIS

Internal Controls Need Improvement

We found significant financial internal control weaknesses over stamp, money order,
and cash accountability; disbursements; and financial accounting and reporting at the
sites we visited. In total, we identified 80 internal control deficiencies out of 161 control
tests performed and attributed the deficiencies to financial managers’ and supervisors’
insufficient financial background and training. Also, while district management recently
implemented district-wide monitoring of individual unit performance, we found the new
procedures to be incomplete and unit managers and supervisors were not sufficiently
supervised.

Stamp, Money Order and Cash Accountability

We examined controls over stamps, money orders, and cash at five units and
determined they did not always adhere to the established controls and procedures.
Although the five units had closed all inactive clerk cash retained as of June 2009, they
did not conduct timely examinations of cash and stamps, account for obsolete money
orders, and maintain the appropriate stamp stock levels. In addition, units did not
always provide adequate security for stamp stock, money orders, and cash.
Specifically:

       Five units maintained excess retail floor stock ranging from $18,934 to $172,190
        (155 to 474 percent) over the required levels.7 This condition occurred at the
        units because the managers were not fully aware of the requirements.

        Maintaining excess retail floor stock may have contributed to three units having
        retail floor stock shortages totaling $85,839.

            o At the one station, our retail floor stock examination found a shortage of
              $79,536. The Station Manager explained most of the shortage was due to
              a paperwork error. After the unit fixed the records, they recounted the
              stock and recorded a $75,455 overage. The net shortage was $4,081.
            o At one station, the Manager stated the $1,184 shortage may have been
              the result of his transferring stock in POS without properly physically
              transferring it.8
            o At one station, the Supervisor stated the shortage of $5,119 may have
              been due to the unit not including redeemed stock9 when performing retail
              floor stock counts.10

7
  Handbook F-101, Field Accounting Procedures (FAP), January 2009, Section 14-2.3.
8
  We counted the xxxxxxxxxxxxxxxxxxxx retail floor stock as $35,956 and the record showed a $37,140 balance. The
unit attributes the shortage to a similar overage in the unit reserve.
9
  Stamp stock to be returned to the Stamp Distribution Office (SDO).
10
   We counted the xxxxxxxxxxxxxxxxxxxx retail floor stock as $205,434 and the record showed a $210,553 balance.




                                                         8
Philadelphia District Post Office Financial Risk Audit                                                  FF-AR-09-223




         We believe limiting the amount of retail floor stock may help prevent significant
         shortages in the future.

        The Philadelphia District improved their counts of Retail Associates’ (RA) cash
         but did not always conduct counts of unit cash reserve.11 The district used the
         FY 2009 District Manager Financial Control – Eastern Area scorecard to
         measure compliance with RA cash counts and met its target goal as of June
         2009. Our audit confirmed unit managers conducted timely RA cash counts at
         four of five units on a monthly basis. However, the district did not ensure unit
         management conducted counts of unit cash reserve. According to our PARIS
         model, only 60 percent of the districts’ units were in compliance with the Postal
         Service policy12 as of June 2009. Management at three units visited did not
         conduct counts of unit cash reserve at the proper frequency. Unit managers
         were unaware their designated employees either did not conduct the counts or
         did not enter the count results into POS.

         Not counting the unit cash reserve may have contributed to a $5,119 shortage
         we identified at one station for which the Station Manager did not have an
         explanation. The unit cash reserve was assigned to four individuals; however,
         we were unable to physically locate two individuals’ assigned cash. There were
         no records showing when the unit conducted the last unit cash counts before our
         visit, and the two employees who held the consigned credits cash were
         transferred to other units. As a result of our audit, the Station Manager issued
         letters of demand to those accountable for the unit cash reserve. Had the unit
         followed prescribed procedures, they may have detected or prevented the lost
         cash earlier.

        Two units did not account for 1,379 domestic and six international money orders
         valued at $554,000 and 167 obsolete money orders valued at $66,800.13 Postal
         Service policy requires the Postmaster to maintain an accurate inventory of all
         accountable paper within the retail unit;14 furthermore, the policy requires unit
         management to return obsolete money orders to the SDO for destruction.15 Unit
         managers at the two stations stated they thought these money orders were part
         of OIG and Postal Inspection Service investigations. However, the units did not
         follow up with the investigators and continued to hold the unrecorded money
         orders. For example, at one station, management did not account for 167
         obsolete money orders found in a sealed drawer belonging to a former
         employee. The employee left the Postal Service in 1998.

11
   A unit cash reserve may be established to provide associates a resource for exchanging large bills for rolled coins
and smaller denomination currency.
12
   FAP, Section 13-9.1.
13
   The OIG determined the average value of lost/stolen money orders is $400.
14
   FAP, Section 11-3.1.
15
   FAP, Section 11-6.11.




                                                           9
Philadelphia District Post Office Financial Risk Audit                                               FF-AR-09-223



See Appendix C for a summary of accountability examinations by unit. See Appendix D
for a summary of findings by unit. See Appendix E for the monetary impact associated
with unit cash and stock shortages and Appendix F for the non-monetary impact
associated with excess stock and unrecorded money orders.

Disbursements

We examined disbursement controls at five units and determined they did not always
adhere to established controls and procedures. Units did not always follow the
preferred payment methods hierarchy for local expenses, properly support or justify
refund transactions, or research and resolve expenses items resulting from financial
differences. Specifically:

        Three units have access to eBuy and SmartPay credit cards; however, they did
         not use these preferred payment methods, as required,16 for local disbursements
         made between May 2008 and May 2009. Unit management could not provide
         definitive answers as to why employees did not follow the procedures but stated
         the units made purchases for emergency situations or convenience.

        Five units could not provide any or sufficient supporting documentation for
         $19,591 (45 percent) of the $43,264 in disbursements reviewed. Units are
         required to complete Postal Service (PS) Forms 3533, Application for Refund of
         Fees, Products and Withdrawal of Customer Accounts, for all refunds and to
         keep a copy of the form and supporting documentation on file. In addition,
         refunds must be certified and witnessed.17 The district emphasized that proper
         completion of PS Forms 3533 was on the "Daily Responsibilities" checklist they
         provided but did not realize unit management was not always performing the
         task. For example, management at one station could not provide supporting
         documentation for $9,951 (59 percent) of the $16,966 in disbursements due to an
         inadequate filing system. Additionally, management at another station signed off
         daily on the checklist but only performed a cursory review of it.

        Five units did not research and resolve financial differences18 totaling $661,985.
         The differences ranged from $838 to $656,291. Units are required to research
         and resolve financial differences and maintain a system-generated record or
         log.19 For example, we found a potential cash loss of $86,666 at the xxxxxxxxxxx
         xxxxxxx as a result of cash transfers for the period May 2008 through April 2009.
         Specifically, the district established a procedure where only the xxxxxxxxxxx
         xxxxxxx would withdraw money from the bank in order to replenish change funds
         for all stations and branches. The xxxxxxxxxxxxxxxxxxx would record a cash
         transfer out, send the cash to the unit, and the unit would receive the cash and

16
   FAP, Section 19-1.1.
17
   FAP, Section 21-1.
18
   Financial differences are unreconciled expense entries that must be researched and resolved in a timely manner.
19
   FAP, Section 8-1.2.




                                                         10
Philadelphia District Post Office Financial Risk Audit                                                 FF-AR-09-223



         record a transfer in. Our high-level reconciliation found the xxxxxxxxxxxxxxxxxxx
         recorded $86,666 more in transfers out than units recorded as transfers in.

         The district stopped this practice in April 2009; however, the district never
         reconciled to determine which units did not account for money received, or
         whether money recorded as being transferred out actually left the xxxxxxxxxxx
         xxxxxxxx

         Further, the units did not maintain a detailed record because management did
         not have an understanding of expenses related to differences in financial
         transactions and was not aware they needed to track all expenses on a log.
         Although the units have recently been receiving Narrowcast reports,20 three of
         five unit managers stated they do not understand the reports. When unit
         personnel do not monitor, correct or recover financial differences, there is an
         increased risk they will lose funds and have inaccurate financial statements.

See Appendix D for a summary of findings by unit. See Appendix E for the monetary
impact associated with these issues.

Financial Accounting and Reporting

We examined financial accounting and reporting controls at 13 units and determined
that units recorded BRM/PD transactions in manual records but did not record $185,889
in withdrawals from BRM/PD accounts in the POS system. Also, units did not reconcile
their manual records with ADM reports on a monthly basis. Specifically:

        Ten units did not reconcile the ADM master trust account balances with the
         balances they maintained. The BRM/PD trust accounts were out of balance by
         amounts ranging from negative $1,582 to positive $99,044. Units that maintain
         customer advance deposit trust accounts must reconcile their local customers’
         trust balances with the ADM balances at least once a month.21 This condition
         occurred because BRM/PD Clerks and their Supervisors were not aware of
         requirements.

        Eight units recorded withdrawals locally on their PS Forms 25, Trust Fund
         Account, but did not record the transactions in the POS system. The POS
         procedures guide requires the clerk to record withdrawals in POS;22 however, the
         clerks and unit managers did not know how to record the transactions in the
         system. For example, at one station, the BRM Clerk had not posted $99,044 in
         withdrawals into POS for more than 2 years. At another station, the BRM Clerk
         did not have POS access and relied on the Supervisor to post withdrawals into

20
   A Narrowcast report is generated for expense items greater than $500. The report is emailed to the postal retail
unit, the district Finance Manager, the area Accounting Manager, and the area Finance Manager.
21
   FAP, Section 16-4.2.
22
   NCR R27.0, POS ONE Procedures Guide, Revised April 27, 2007 (V1.02).




                                                         11
Philadelphia District Post Office Financial Risk Audit                                                    FF-AR-09-223



         the system for her. Both Clerks stated they did not have any training in this area
         but were asked to manage the master trust accounts. Units did not recognize
         $185,899 in revenue as a result of not recording the withdrawals in POS.

        Seven units did not monitor master trust accounts for inactivity. Units are
         required to close BRM accounts inactive for 2 years and PD accounts inactive for
         1 year. The unit must send cancellation notices to customers and allow them 10
         days from the date of notice to respond. In addition, for account balances of $25
         or less, the unit should withdraw the balance from the customer's account and
         refund it to account identifier code (AIC) 126.23 Managers at these seven units
         were not monitoring the BRM/PD accounts and were unaware the units had
         inactive accounts. At one station, the unit maintained a master trust account
         balance of $7,584, which had been inactive since January 2006. In total, we
         identified 56 inactive accounts valued at $52,43324 that should be closed.

As a result of units not reconciling master trust accounts, recording BRM/PD
withdrawals, or monitoring for inactivity, the Postal Service overstated liabilities and
understated revenue by $240,561. On July 29, 2009, the district instructed units to
reconcile their customer trust accounts and resolve the differences and record BRM/PD
withdrawals in the appropriate account identifier codes.

See Appendix D for a summary of discrepancies by unit. See Appendix E for the
monetary impact and Appendix F for the non-monetary impact associated with master
trust accounts.

Analysis of Causes

We identified 80 internal control deficiencies out of 161 control tests25 performed and
attributed the deficiencies to financial managers’ and supervisors’ insufficient financial
background and training. Also, while district management recently implemented district-
wide monitoring of individual unit performance, we found the new procedures to be
incomplete and unit managers and supervisors were not sufficiently supervised.

        Unit managers were not always aware of Postal Service internal control
         requirements. For example, managers at five units were not aware they
         exceeded retail floor stock limits. At 10 units, management was not aware they
         needed to reconcile the ADM master trust account balances with balances
         maintained by the unit on a monthly basis. Also, unit managers, when aware of
         the proper procedures, did not always place the appropriate level of attention
         required to ensure the effective implementation of internal control requirements.
23
   FAP, Section 17-6.
24
   We identified 41 inactive accounts (valued at $36,010) at the Main Office window.
25
   We performed 145 control tests at five units initially selected to include: Clerk Cash (four tests), Office Cash (four
tests), Accountability Counts (five tests), Stamp Stock (five tests), Local Expenses (two tests), Refunds (two tests),
Miscellaneous Expenses (two tests), Employee Items (two tests), Master Trust (two tests), and POS Roles (one test).
We also performed 16 tests at eight additional sites to include Master Trust (two tests).




                                                           12
Philadelphia District Post Office Financial Risk Audit                         FF-AR-09-223



        For example, at five units, managers were aware of the requirement for
        maintaining a detailed record for financial differences and ensuring timely
        clearance; however, they did not always make sure their unit complied with the
        requirement.

        Furthermore, unit managers and supervisors had operational experience but did
        not have the necessary financial background and training. During our audit, we
        interviewed one Station Manager, one Postmaster, and five supervisors. They all
        stated their financial training had been primarily on-the-job and no one from the
        district had contacted them to recommend training. All five supervisors
        interviewed began their Postal Service careers as letter carriers, mail processing
        clerks, mail handlers, or RAs and were later promoted to supervisory positions.
        We discussed the issue with district management and confirmed there were no
        financial training requirements for employees who became managers or
        supervisors and, consequently, most received limited financial training.

       District management stated they have experienced significant turnover and many
        supervisors have less than 1 year of financial experience. Additionally, the
        district is temporarily filling many financial supervisory positions with
        inexperienced and untrained personnel. During our audit, we noted one
        supervisor had recently been promoted and never performed the retail floor stock
        and unit cash reserve counts. One Station Manager was getting ready to retire
        and the Supervisor at that unit only had experience conducting stamp stock
        counts. The district indicated that there are 461 EAS employees and
        postmasters in the Philadelphia Metropolitan District who could potentially be
        placed in financial manager or supervisor roles even though they may not have
        the necessary financial background and training.

        The Postal Service developed the following 10 “Field Finance Toolkit” courses to
        help employees understand and perform their required financial duties and
        responsibilities:

            o    Customer Trust
            o    Daily Financial Reporting Basics
            o    Employee Items
            o    Field Unit Purchasing and Payment Process
            o    Financial Accountability Overview
            o    Financial Differences
            o    Financial Security
            o    Stamp Stock Management
            o    Timekeeping
            o    Unit 1412 Closeout

        We believe that all managers and supervisors should take these courses within a
        year of becoming supervisors to build their financial competencies and become




                                                         13
Philadelphia District Post Office Financial Risk Audit                                             FF-AR-09-223



         familiar with resource materials they can use when performing their duties and
         responsibilities.

        The district used the FY 2009 District Manager Financial Control – Eastern Area
         scorecard to monitor financial activity. The scorecard indicated improvement in
         total stamp stock management, employee items, and RAs’ cash counts. We
         confirmed this improvement during our audit tests.

             o Three of five units we examined were within the established overall stamp
               stock limit.
             o Four of five units we examined monitored the employee items and one
               unit took corrective action to clear the employee items after we discussed
               the issue with them.
             o Four of five units were counting RAs at the proper frequencies. In
               addition, all five units eliminated dormant RA cash credits during FY 2009.

         However, the scorecard did not include a measure for excess retail floor stock or
         unit cash reserve count compliance, and we concluded units required
         improvement in these areas.

             o All five units exceeded the retail floor stock level.
             o Three of five units did not conduct counts of unit cash reserve at the
               proper frequency.

         The district developed the "Daily Responsibilities" checklist and provided it to the
         units but did not realize management was not always performing all of the tasks
         on the checklist. For example, there are 12 items on the checklist which require
         unit managers to review supporting documentation for all entries included on the
         daily PS Form 1412, Daily Financial Report. We noted all five units did not
         actively track local expenses and refunds, one of the 12 items on the checklist.
         Although the district has initiated a process to identify and analyze risks
         associated with achieving management’s objectives, we believe additional
         oversight and monitoring is needed to hold managers and supervisors
         accountable for administering their daily financial responsibilities.

In a previous OIG report,26 we concluded the Philadelphia District was experiencing
significant delayed mail, causing service degradation. The causes identified in the
report were inadequate training and employee turnover, similar to the issues we found
in our audit of financial activities.




26
  Activation of the Philadelphia Processing and Distribution Center (Report Number NO-AR-08-004, dated July 10,
2008).




                                                         14
Philadelphia District Post Office Financial Risk Audit                                                                                                                                                   FF-AR-09-223



                                             APPENDIX C: ACCOUNTABILITY EXAMINATION SUMMARY

This table presents the results of accountability examinations performed during the audit, rounded to the nearest
dollar. Shortages and overages presented are the total value of all shortages and overages identified.
                          xxxxxxxxxxx                      xxxxxxxxxxxx                   xxxxxxxxxxxx                        xxxxxxxxxxxx                    Lansdale
                            xxxxxxx                          xxxxxxx                        xxxxxxx                               xxxxx                      Post Office                    Total Value of All

                             Shortage




                                                            Shortage




                                                                                            Shortage




                                                                                                                               Shortage




                                                                                                                                                             Shortage




                                                                                                                                                                                              Shortage
                                             Overage




                                                                            Overage




                                                                                                                Overage




                                                                                                                                               Overage




                                                                                                                                                                              Overage




                                                                                                                                                                                                                Overage
Accountability
Unit Reserve
                                        $8             -               -   $1,015                      -   $2,242                         -      $40                    -   $1,490                       $8   $4,787
Stock

Unit Cash
                            $5,119                     -    $2327                     -        $23                        -               -      $19                    -           $6       $5,165                 $25
Reserve
Retail Floor
                          $79,536                      -   $1,184                     -   $5,119                          -               -   $2,292                    -   $1,731          $85,839           $4,023
Stock

Other Segment                            -             -    $695                      -                -                  -               -              -              -               -     $695                        -




27
     We did not count the unit cash reserve at the unit because the unit could not locate it.


                                                                                                           15
         Philadelphia District Post Office Financial Risk Audit                                                                                                                           FF-AR-09-223



                                                                APPENDIX D: CONTROL DEFICIENCIES

         This table presents the internal control deficiencies identified while implementing the full audit program at the five
         original sites judgmentally selected for audit.




                                                                                 xxxxxxxxxxx




                                                                                                              xxxxxxxxxxx




                                                                                                                                        xxxxxxxxxxx
                                                                                               xxxxxxxxxxr
                                                                                               xxxxxxxxx


                                                                                                              xxxxxxxxx

                                                                                                                            xxxxxxxxx




                                                                                                                                                      Number of
                                                                                                                                        xxxxxxxx
                                                                                 xxxxxxx




                                                                                                                            xxxxxxx




                                                                                                                                                      units
                  Internal Control Not Implemented                                                                                                                           Specific Actions Required
                                                               Stamp, Cash, and Money Order Accountability
                                                                                                                                                                  Reduce retail floor stock to the limit
1.   Maintain retail floor stock within authorized limit.                         X             X                 X           X          X             5
                                                                                                                                                                  established by Postal Service policy.
                                                                                                                                                                  Perform and document unit reserve
                                                                                                                                                                  examinations at proper frequencies.
                                                                                                                                                                  Additionally, count the unit reserve stamp
2. Conduct timely examinations of unit reserve stamp stock.                       X             X                 X           X          X             5
                                                                                                                                                                  stock when retail floor stock counts exceed
                                                                                                                                                                  the authorized inventory variance outlined in
                                                                                                                                                                  policy.
                                                                                                                                                                  Perform and document retail floor stock
3. Conduct timely examinations of retail floor stock.                             X             X                             X          X             4
                                                                                                                                                                  examinations at proper frequencies.
                                                                                                                                                                  Obtain approval to retain cash above
4. Adhere to the individual cash retained authorized limit.                       X             X                 X           X          X             5
                                                                                                                                                                  authorized limits from district finance.
                                                                                                                                                                  Reduce the unit cash retained to the
5. Adhere to the total unit authorized cash retained limit.                                                       X           X          X             3          authorized level or obtain authorization to
                                                                                                                                                                  increase the limit.
6. Document and maintain a file for PS Forms 3368-P,
                                                                                                                                                                  Post the results of accountable examinations
   Accountability Examination Record, used to enter the                           X             X                                        X             3
                                                                                                                                                                  on a PS Form 3368-P.
   results of accountability examinations performed.
7.   Maintain the total unit stamp stock within authorized limits.                                                          X28          X             2          Reduce stamp stock to authorized limits.




         28
              During our audit, the unit took corrective action on this internal control deficiency.


                                                                                                             16
        Philadelphia District Post Office Financial Risk Audit                                                                                                           FF-AR-09-223



                                                APPENDIX D: CONTROL DEFICIENCIES (continued)




                                                                        xxxxxxxxxxx


                                                                                      xxxxxxxxxxx


                                                                                                     xxxxxxxxxxx



                                                                                                                   xxxxxxxxxxx



                                                                                                                                 xxxxxxxxxxx
                                                                                      xxxxxxxxx


                                                                                                     xxxxxxxxx




                                                                                                                                               Number of
                                                                                                                                 xxxxxxxx
                                                                        xxxxxxx




                                                                                                                   xxxxon




                                                                                                                                               units
              Internal Control Not Implemented                                                                                                                       Specific Actions Required
                                                       Stamp, Cash, and Money Order Accountability
                                                                                                                                                           Perform and document unit cash reserve
8. Perform examinations of the unit cash reserve at the proper                                                                                             examinations at proper frequencies.
                                                                         X                               X                        X             3
   frequency.                                                                                                                                              Additionally, post all counts into the POS
                                                                                                                                                           system.
                                                                                                                                                           Record or return money orders to the SDO,
9. Record (obsolete) money orders.                                       X             X                                                        2
                                                                                                                                                           as appropriate.
10. Safeguard cash                                                      X29           X30                                                       2          Record and secure all Postal Service funds.

                                                                                                                                                           Close the vending credit in accordance with
11. Conduct an examination and close the vending credit.                               X                 X31                                    2
                                                                                                                                                           Postal Service policy.
12. Perform cash retained credit counts at the proper                                                                                                      Perform and document cash retained credit
                                                                                       X                                                        1
    frequency.                                                                                                                                             examinations at the required frequencies.
                                                                                                                                                           Adequately secure accountable items in the
13. Properly secure retail floor stock.                                 X32                                                                     1
                                                                                                                                                           unit.




        29
           During the fieldwork, we opened a duffle bag and found $224 in cash which the unit did not record on the unit's PS Form 1412.
        30
           A former employee turned in her cash credit when she transferred to another unit in June 1999; however, the cash was neither deposited nor recorded on
        the unit's PS Form 1412.
        31
           The unit did not know what to do with the cash totaling $1,195 and just held it in the unit reserve.
        32
           A day after the OIG conducted the retail floor stock count, one of the RAs informed the audit team that a window drawer contained floor stock. The
        Customer Service Supervisor did not know the drawer contained retail floor stock and did not have a duplicate key, as the drawers were never numbered or
        assigned and the keys were not issued.


                                                                                                    17
        Philadelphia District Post Office Financial Risk Audit                                                                                                      FF-AR-09-223



                                               APPENDIX D: CONTROL DEFICIENCIES (continued)




                                                                     xxxxxxxxxxx


                                                                                   xxxxxxxxxxx


                                                                                                  xxxxxxxxxxx




                                                                                                                            xxxxxxxxxxx
                                                                                   xxxxxxxxx


                                                                                                  xxxxxxxxx

                                                                                                                xxxxxxxxx




                                                                                                                                          Number of
                                                                                                                            xxxxxxxx
                                                                     xxxxxxx




                                                                                                                xxxxxxx




                                                                                                                                          units
              Internal Control Not Implemented                                                                                                                  Specific Actions Required
                                                                        Disbursements
14. Research and resolve expense items resulting from                                                                                                 Log financial differences and ensure timely
    financial differences or maintain an individual detailed          X             X                 X           X          X             5          offset by making annotations to identify status
    record to monitor the discrepancies (247/647).                                                                                                    or date of offset.
                                                                                                                                                      Properly complete, review, and retain support
15. Properly support or justify disbursements.                        X             X                 X           X          X             5
                                                                                                                                                      documentation for disbursements.
16. Follow the preferred payment methods hierarchy for local                                                                                          Follow the preferred payment method
    expenses.                                                         X             X                             X                        3          hierarchy for local expenses in accordance
                                                                                                                                                      with Postal Service policy.
                                                            Financial Accounting and Reporting
                                                                                                                                                      Reconcile ADM master trust balances with
17. Reconcile ADM master trust account balances with
                                                                                    X                 X           X          X             4          balances maintained at the unit on a monthly
    balances maintained by the unit.
                                                                                                                                                      basis.
                                                                                                                                                      All three unit management took corrective
18. Restrict access to Postal Service information resources to
                                                                                                                                                      action during the audit to limit POS system
    authorized employees by properly maintain employee roles          X             X                             X                        3
                                                                                                                                                      access; therefore, we are not requesting
    in POS.
                                                                                                                                                      further action.
                                                                                                                                                      Enter amount withdrawn to AIC 114, Postage
                                                                                                                                                      Due Invoices and offset to AIC 453,
19. Post BRM/PD advance deposit withdrawals in POS.                                 X                             X                        2
                                                                                                                                                      BRM/Postage Due Advance Deposit
                                                                                                                                                      Withdrawal,33 on PS Form 1412.




        33
          AIC 114 is for funds collected from BRM/PD with PS Form 3582-P, BRM/PD Invoice, and/or PS Form 3584, Postage Due Log. AIC 453 is for funds
        withdrawn from BRM/PD advance trust accounts with PS Form 3582-P to offset AIC 114, or customer written claims for withdrawal of funds.


                                                                                                 18
       Philadelphia District Post Office Financial Risk Audit                                                                                                       FF-AR-09-223



                                              APPENDIX D: CONTROL DEFICIENCIES (continued)




                                                                   xxxxxxxxxxx




                                                                                                xxxxxxxxxxx



                                                                                                              xxxxxxxxxxx



                                                                                                                            xxxxxxxxxxx
                                                                                 xxxxxxxxxxr
                                                                                 xxxxxxxxx


                                                                                                xxxxxxxxx




                                                                                                                                          Number of
                                                                                                                            xxxxxxxx
                                                                   xxxxxxx




                                                                                                              xxxxxx




                                                                                                                                          units
             Internal Control Not Implemented                                                                                                                   Specific Actions Required
                                                           Financial Accounting and Reporting
                                                                                                                                                      Monitor advance deposit accounts for
                                                                                                                                                      inactivity and close or refund account
20. Close inactive BRM/PD accounts.                                 X                               X                                      2
                                                                                                                                                      balances in accordance with Postal Service
                                                                                                                                                      policy.
                                                                                                                                                      Monitor employee items as required,
21. Reconcile employee item balances to local unit records and
                                                                                                                                                      preparing a file for each one with all the
    research and resolve any differences. Clear or initiate
                                                                    X                                                                      1          appropriate documentation. In addition,
    collection procedures identified on the POS Unresolved
                                                                                                                                                      maintain a master control for all unresolved
    Employee Items Report.
                                                                                                                                                      employee items.




                                                                                               19
       Philadelphia District Post Office Financial Risk Audit                                                                                                                   FF-AR-09-223




                                              APPENDIX D: CONTROL DEFICIENCIES (continued)

       This table presents the internal control deficiencies identified while reviewing the controls over master trust accounts at
       eight additional units selected for audit.




                                                                                                      xxxxx Station
                                                  xxxxxxxxtore




                                                                                                                      xxxxxxxxxxg



                                                                                                                                    xxxxxxxxxxx
                                                                              Wanamaker
                                                  xxxxxxxxxx



                                                                 xxxxxxxxxx




                                                                                                                                    xxxxxxxxxx


                                                                                                                                                  xxxxxxxxxx
                                                                                                                                                  xxxxxxxxxx
                                                                                          xxxxxxxxx




                                                                                                                                                               Number of
                                                                 xxxxxxx




                                                                                          xxxxxxx




                                                                                                                      xxxxxxx
                                                                              Station




                                                                                                                                                  xxxxxx


                                                                                                                                                               Units
                                                                              John
Internal Control Not Implemented                                                                                                                                                 Specific Action Required
                                                                  BRM/PD Master Trust Accounts
22. Reconcile the ADM master trust account                                                                                                                                 Reconcile ADM master trust
    balances with balances maintained by the           X           X                       X          X                               X              X           6         balances with balances maintained
    unit.                                                                                                                                                                  at the unit on a monthly basis.
                                                                                                                                                                           Enter amount withdrawn to AIC 114
23. Post BRM/PD advance deposit
                                                       X           X                       X          X                               X              X           6         and offset to AIC 453 on PS Form
    withdrawals in POS.
                                                                                                                                                                           1412.
                                                                                                                                                                           Monitor advance deposit accounts
                                                                                                                                                                           for inactivity and close or refund
24. Close Inactive BRM/PD accounts.                    X           X            X          X                            X                                        5
                                                                                                                                                                           account balances in accordance with
                                                                                                                                                                           Postal Service policy.




                                                                                                20
Philadelphia District Post Office Financial Risk Audit                                                                               FF-AR-09-223



                                             APPENDIX E: MONETARY IMPACT SUMMARY

These tables present the monetary impact identified during the audits of the units, rounded to the nearest dollar. The
first table lists the results of implementing the full audit program at five sites we judgmentally selected for audit. The
second table lists the results of our limited review of the master trust section of the audit program.

Review of Stamps, Money Orders, Cash, Disbursements, and Financial Accounting and Reporting at Five
Original Units

                                                                                                                Questioned Costs

                                                                             Recoverable             Supported                Unsupported
             Reference                  Finding Description                   Revenue34             Recoverable35            Unrecoverable36

         xxxxxxxxxxxxxxxxxxx
             Appendix C        Retail floor stock shortage                                                                                $4,08137

             Appendix C        Unit cash reserve shortage                                                       $5,119                            -

                 10            Undeposited cash                                          $224
                               Unresolved financial differences (net
                 14                                                                                             86,666
                               shortage)                                                                                                  569,625
                               Unsupported or improperly supported
                 15                                                                                                                          9,951
                               refunds
                 20            Inactive advance deposit not closed                     36,010

                 21            Unresolved employee items                                                        $6,888

         xxxxxxxxxxxxxxxxxxxx
             Appendix C        Philatelic credit shortage                                                                                      695

                 10            Undeposited cash                                            110




34
   Revenue the agency has collected but which it should refund because postage or fees were paid in excess of the lawful rate.
35
   Recoverable costs that are unnecessary, unreasonable or an alleged violation of laws or regulations.
36
   Unrecoverable cost that are unnecessary, unreasonable or an alleged violation of law or regulation. These costs are also not supported by adequate
documentation.
37
   This figure represents the retail floor stock shortage of $79,536 on June 3, 2009, less the retail floor stock overage of $75,455 on July 1, 2009.

                                                                            21
Philadelphia District Post Office Financial Risk Audit                                                                      FF-AR-09-223



                                    APPENDIX E: MONETARY IMPACT SUMMARY (continued)

                                                                                                                Questioned Costs

                                                                             Recoverable             Supported                Unsupported
             Reference                  Finding Description                   Revenue38             Recoverable39            Unrecoverable40
                               Unresolved financial differences (net
                 14                                                                                                                         $3,792
                               shortage)
                               Unsupported or improperly supported
                 15                                                                                                                          1,679
                               refunds
                               BRM/PD advance deposit withdrawals
                 19                                                                   $36,918
                               were not posted in POS

         xxxxxxxxxxxxxxxxxxxx
             Appendix C        Retail floor stock shortage                                                                                   5,119

                 11            Undeposited vending cash                                 1,195
                               Unresolved financial differences (net
                 14                                                                                                                            838
                               shortage)
                               Unsupported or improperly supported
                 15                                                                                                                          2,706
                               refunds
                 20            Inactive advance deposit not closed                      4,795

         xxxxxxxxxxxxxxxxx
                               Unsupported or improperly supported
                 15                                                                                                                          2,878
                               refunds
                               BRM/PD advance deposit withdrawals
                 19                                                                    34,948
                               were not posted in POS

         xxxxxxxxxxxxxxxxxxxx
                               Unresolved financial differences (net
                 14                                                                                                                          1,064
                               shortage)
                               Unsupported or improperly supported
                 15                                                                                                                          2,296
                               refunds
                 17            Negative advance deposit account                                                                              1,582

                               Subtotals                                             $114,200                 $98,673                    $606,306


38
   Revenue the agency has collected but which it should refund because postage or fees were paid in excess of the lawful rate.
39
   Recoverable costs that are unnecessary, unreasonable or an alleged violation of laws or regulations.
40
   Unrecoverable cost that are unnecessary, unreasonable or an alleged violation of law or regulation. These costs are also not supported by adequate
documentation.

                                                                            22
Philadelphia District Post Office Financial Risk Audit                                                                      FF-AR-09-223



                                    APPENDIX E: MONETARY IMPACT SUMMARY (continued)

Review of Master Trust Accounts at Eight Additional Units

                                                                                                                Questioned Costs

                                                                              Recoverable             Supported               Unsupported
              Reference                   Finding Description                  Revenue41             Recoverable42           Unrecoverable43

          xxxxxxxxxxxxxxxxxxxxxxx
                                BRM/PD advance deposit withdrawals
                  23                                                                    $3,678
                                were not posted in POS
                  24            Inactive advance deposit not closed                        224

          xxxxxxxxxxxxxxxxxx
                                BRM/PD advance deposit withdrawals
                  23                                                                     1,739
                                were not posted in POS
                  24            Inactive advance deposit not closed                         88

          xxxxxxxxxxxxxxxxxxxxxx
                  24            Inactive advance deposit not closed                      7,584

          xxxxxxxxxxxxxxxxx
                  22            Negative advance deposit account                           657
                                BRM/PD advance deposit withdrawals
                  23                                                                    99,044
                                were not posted in POS
                  24            Inactive advance deposit not closed                      1,866

          xxxxxxxxxxxxx
                                BRM/PD advance deposit withdrawals
                  23                                                                     4,794
                                were not posted in POS
          xxxxxxxxxxxxxxxxxxx
                  24            Inactive advance deposit not closed                      1,866


41
   Revenue the Postal Service has collected but which it should refund because postage or fees were paid in excess of the lawful rate.
42
   Recoverable costs that are unnecessary, unreasonable or an alleged violation of laws or regulations.
43
   Unrecoverable cost that are unnecessary, unreasonable or an alleged violation of law or regulation. These costs are also not supported by adequate
documentation.

                                                                            23
Philadelphia District Post Office Financial Risk Audit                                                                      FF-AR-09-223



                                    APPENDIX E: MONETARY IMPACT SUMMARY (continued)

                                                                                                                Questioned Costs

                                                                              Recoverable             Supported               Unsupported
              Reference                  Finding Description                   Revenue44             Recoverable45           Unrecoverable46
          xxxxxxxxxxxxxxxxxxxxxx
                                BRM/PD advance deposit withdrawals
                  23                                                                     3,316
                                were not posted in POS
          xxxxxxxxxxxxxxxxxxxxxxxxxx
                                BRM/PD advance deposit withdrawals
                  23                                                                     1,452
                                were not posted in POS
                                Subtotals                                            $126,308

                                Total $945,487                                       $240,508                  $98,673                  $606,306




44
   Revenue the Postal Service has collected but which it should refund because postage or fees were paid in excess of the lawful rate.
45
   Recoverable costs that are unnecessary, unreasonable or an alleged violation of laws or regulations.
46
   Unrecoverable cost that are unnecessary, unreasonable or an alleged violation of law or regulation. These costs are also not supported by adequate
documentation.

                                                                            24
Philadelphia District Post Office Financial Risk Audit                                                                           FF-AR-09-223



                                            APPENDIX F: NON-MONETARY IMPACT SUMMARY

This table presents the non-monetary impact identified during the audits of the five units, rounded to the nearest dollar.

                                                                                                                              Accountable
                           Reference          Finding Description                                   Assets at Risk47        Items at Risk47
                      xxxxxxxxxxxxxxxxxxx
                                1             Excess retail floor stock                                                             $117,639
                                9             Unrecorded money orders                                                                553,600
                               13             Unsecured retail floor stock                                                              2,255

                      xxxxxxxxxxxxxxxxxxxx
                                1             Excess retail floor stock                                                                18,934
                                9             Unrecorded money orders                                                                  67,200
                      xxxxxxxxxxxxxxxxxxxx
                                1             Excess retail floor stock                                                              172,190
                                5             Excess unit cash retained                                           $623

                               17             Master trust account balance not reconciled                          388

                      xxxxxxxxxxxxxxxxx
                                1             Excess retail floor stock                                                                48,483

                                5             Excess unit cash retained                                            243

                      xxxxxxxxxxxxxxxxxxxx
                                1             Excess retail floor stock                                                              142,605

                                5             Excess unit cash retained                                            193
                                              Subtotals                                                         $1,447            $1,122,906

                                              Total                                                               $1,124,353




47
     Assets or accountable items (for example, cash, stamps, or money orders) that are at risk of loss because of inadequate internal controls.


                                                                                25
Philadelphia District Post Office Financial Risk Audit         FF-AR-09-223



                           APPENDIX G: MANAGEMENT’S COMMENTS




                                                         26
Philadelphia District Post Office Financial Risk Audit        FF-AR-09-223




                                                         27
